                                             January 31, 2001



MEMORANDUM TO:                Chairman Meserve



FROM:                         Hubert T. Bell/RA/
                              Inspector General


SUBJECT:                      THE SPECIAL EVALUATION OF NRC’S MOST SERIOUS
                              MANAGEMENT CHALLENGES (OIG-01-A-04)


Attached is the Office of the Inspector General’s report titled, Special Evaluation of NRC’s Most
Serious Management Challenges.

This report responds to a congressional request regarding the most serious management
challenges facing the Nuclear Regulatory Commission (NRC). The report provides the
following information: (1) the seven management challenges facing the agency as identified by
the Inspector General, (2) an open audit recommendation related to the financial management
challenge, (3) the agency’s efforts to address the 1999 list of most serious management
challenges through its strategic plan, (4) a comparison of the previous lists of challenges and
how the lists have evolved, and (5) the questionable results associated with the Agencywide
Documents Access and Management System (ADAMS). This report makes no
recommendations.

If you have any questions, please call me at 415-5915.

Attachment: As stated

cc:     Commissioner Dicus
        Commissioner Diaz
        Commissioner McGaffigan
        Commissioner Merrifield
cc:   R. McOsker, OCM/RAM
      B. Torres, ACMUI
      B. Garrick, ACNW
      D. Powers, ACRS
      J. Larkins, ACRS/ACNW
      P. Bollwerk III, ASLBP
      K. Cyr, OGC
      J. Cordes, Acting OCAA
      W.Travers, EDO
      S. Reiter, Acting CIO
      J. Funches, CFO
      P. Rabideau, Deputy CFO
      J. Dunn Lee, OIP
      D. Rathbun, OCA
      W. Beecher, OPA
      A. Vietti-Cook, SECY
      F. Miraglia, DEDR/OEDO
      C. Paperiello, DEDMRS/OEDO
      P. Norry, DEDM/OEDO
      J. Craig, AO/OEDO
      M. Springer, ADM
      R. Borchardt, OE
      G. Caputo, OI
      P. Bird, HR
      I. Little, SBCR
      W. Kane, NMSS
      S. Collins, NRR
      A. Thadani, RES
      P. Lohaus, OSP
      F. Congel, IRO
      H. Miller, RI
      L. Reyes, RII
      J. Dyer, RIII
      E. Merschoff, RIV
      OPA-RI
      OPA-RII
      OPA-RIII
      OPA-RIV
                             OFFICE OF
                      THE INSPECTOR GENERAL


                          U.S. NUCLEAR
                     REGULATORY COMMISSION



                        Special Evaluation of NRC’s Most
                        Serious Management Challenges

                       OIG-01-A-04       January 31, 2001




                  SPECIAL EVALUATION
                        REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
                     http://www.nrc.gov/NRC/OIG/index.html
                                       Special Evaluation of NRC’s Most Serious Management Challenges


EXECUTIVE SUMMARY

Purpose

       In response to congressional requests and consistent with the goal of improving agency
       programs and operations, the Inspector General (IG) at the U.S. Nuclear Regulatory
       Commission (NRC) directed the initiation of a special evaluation to (1) identify the
       current most serious management challenges facing the agency and (2) assess its
       efforts in addressing the IG’s December 1999 management challenges list. Also, the IG
       directed that the special evaluation focus on determining similarities and differences
       between his previous management challenges lists and the most current list, and
       identifying any related agency programs that have had questionable success in
       achieving the intended results. In conducting this evaluation, OIG interviewed over 75
       people were interviewed, including senior NRC executives, congressional staff
       members, and officials from other IG offices.

Background

       In December 1997, Congressman Armey requested that Inspectors General
       independently identify the 10 most serious management problems in their respective
       agencies to help Congress target key problem areas for attention. NRC’s IG complied
       with the request in January 1998. For subsequent lists, congressional members
       changed the word “problems” to “challenges.” On December 1, 1998, the IG revised his
       management challenges list and, a year later, reaffirmed it with Congress. Most
       recently, the IG provided Congress with his currently revised list of NRC’s most serious
       management challenges on November 22, 2000.

Results in Brief

       The IG’s current list identified seven most serious management challenges facing NRC.
       In addition, to better focus his list of management challenges, the IG defined the term
       “management challenges” and set out criteria for adding and removing challenges from
       the list.

       The IG has also identified one open audit recommendation relating to the management
       challenge regarding the agency’s administration of financial management. On a positive
       note, NRC has included a crosswalk in an appendix to its new strategic plan, which
       clearly shows the connection of the management challenges with appropriate steps the
       agency is taking to address them.

       Furthermore, the IG identified the Agencywide Documents Access and Management
       System (ADAMS) as a program that has experienced questionable success in achieving
       its intended results. The agency is aware of the shortcomings with ADAMS, an
       electronic information system, and is working to resolve these issues. The IG will
       continue to monitor this program. This report makes no recommendations.




                                              1
                                           Special Evaluation of NRC’s Most Serious Management Challenges


TABLE OF CONTENTS


        EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

        PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

        EVALUATION RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                  A.        The Revised List of Most Serious Management Challenges . . . 4
                  B.        Open Audit Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . 20
                  C.        NRC’s Efforts in Addressing the IG’s 1999 List of Most Serious
                            Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                  D.        Comparison of the Lists . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
                  E.        Agency Program with Questionable Results . . . . . . . . . . . . . . 23


        CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


        AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


        APPENDICES
                  I         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                  II        1999 Management Challenges List . . . . . . . . . . . . . . . . . . . . . 26
                  III       NRC’s Principles of Good Regulation . . . . . . . . . . . . . . . . . . . 27
                  IV        Abbreviations and Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . 28
                                       Special Evaluation of NRC’s Most Serious Management Challenges


PURPOSE

   In response to congressional requests and consistent with the goal of improving agency
   programs and operations, the Inspector General (IG) at the U.S. Nuclear Regulatory
   Commission (NRC) developed and later updated what he considered to be the most
   serious management challenges facing NRC. The IG evaluated the overall work of the
   Office of the Inspector General (OIG), the OIG staff’s general knowledge of agency
   operations, and other relevant information to develop his list of management challenges.
   Moreover, the IG directed the initiation of a special evaluation to assess the agency’s
   efforts to address the management challenges, to determine similarities and differences
   between the IG’s previous management challenges lists and the most current list, and to
   identify any related agency programs that have had questionable success in achieving
   the intended results.

   As part of the special evaluation, OIG interviewed over 75 people including NRC’s
   Chairman, Commissioners, office directors, and regional administrators to obtain their
   views on what challenges the agency is facing and what efforts the agency has taken to
   address previously identified management challenges. These officials generally
   believed that the IG’s 1999 list (see Appendix II) fairly reflected the primary challenges
   facing the agency. The IG considered the views of NRC officials in updating his list for
   2000. OIG also talked with congressional staff members to obtain their insights in this
   area. Additionally, OIG interviewed staff members from 12 other Federal agency OIGs
   to learn what approaches they were taking to address Congress’ request to identify
   management challenges for their agencies.

  BACKGROUND

   In December 1997, Congressman Armey requested that IGs independently identify the
   10 most serious management problems in their respective agencies to help Congress
   target key problem areas for attention. NRC’s IG complied with the request in January
   1998.

   Congressional members changed the word “problems” to “challenges” and, in August
   1998, Congressmen Armey and Burton requested the IGs to update their 10 most
   serious management challenges lists. The Congressmen also asked the IGs to provide
   a summary description of each challenge on the list together with references to reports
   written by their offices and “any other sources” that contain additional information.
   Later, Senator Thompson requested the IGs to provide him with the same information.

   In September 1999, congressional members (from both the Senate and the House)
   again requested that the IGs update the lists(1) of the most serious management
   challenges facing their agencies. Also, they requested that the IGs assess their
   agency’s efforts to address the challenges, identify open audit recommendations



   1
          IGs are no longer required to provide 10 management challenges. They may provide more or
          fewer challenges, depending on what their agency is facing.

                                               3
Special Evaluation of NRC’s Most Serious Management Challenges


        relating to the challenges, compare and contrast the new management challenges
        listing with previous listings, and identify programs that “have had questionable success
        in achieving results.” The congressional members further stated that the information
        provided by the IGs in the past had been extremely valuable in focusing congressional
        and agency attention on mission-critical management problems and stimulating action to
        resolve the problems. In his December 1999 response to the congressional request, the
        IG stated that the list of most serious management challenges provided in December
        1998 continued to be the most serious challenges facing NRC. To be more responsive
        to their request and in anticipation of revising the management challenges list for the
        year 2000, the IG stated that OIG would conduct a special evaluation to review, in
        depth, the areas of congressional interest and to determine the extent to which NRC is
        addressing the management challenges. In October 2000, Congress requested the IGs
        to update their management challenges information.

EVALUATION RESULTS

        The NRC’s mission is to regulate the Nation’s civilian use of byproduct, source, and
        special nuclear materials to ensure adequate protection of public health and safety, to
        promote the common defense and security, and to protect the environment.
        Successfully carrying out its mission is a demanding task and in doing so NRC, like
        other Federal agencies, faces management challenges. This year, the IG identified
        seven most serious management challenges for NRC.

        A.      The Revised List of Most Serious Management Challenges

                Congress has not officially defined the term “management challenge.” Instead, it
                has left the determination and threshold of what constitutes a serious
                management challenge to the discretion of the IGs. To better focus his list of
                management challenges, the IG at NRC defines “management challenges” as
                follows:

                        Serious management challenges are mission critical
                        areas or programs that have the potential for a perennial
                        weakness or vulnerability that, without substantial
                        management attention, would seriously impact agency
                        operations or strategic goals.

                Serious management challenges may be, but are not necessarily, areas that are
                problematic for the agency. They are critical areas or difficult tasks that warrant
                high-level management attention. Some challenges, in areas such as financial
                management and information management, have inherent risks associated with
                them. Because high dollar amounts are generally devoted to these types of
                challenge areas, the possibility of fraud, waste, and abuse is especially present.
                As such, these challenges will most likely continue to appear on the IG’s list of
                most serious management challenges.




                                                    4
                          Special Evaluation of NRC’s Most Serious Management Challenges


Congress provided the overarching criteria for developing and revising the most
serious management challenges lists as based on work done by the IG’s office,
the OIG staff’s general knowledge of NRC operations, and other relevant
information. Congress also instructed the IGs, when considering management
challenges, to think along the lines of fraud, waste, error, or mismanagement, or
agency programs and activities that otherwise pose a significant risk.
Additionally, the IG at NRC takes into consideration if the issue is long-term in
nature and not generally handled during a business year.

When a challenge falls below the threshold described, the IG may remove the
issue from the list of most serious management challenges. Removing an issue
from the list does not mean that the issue is no longer a challenge for the
agency. While the issue may no longer rise to the threshold of a most serious
management challenge, it may still warrant management attention.

Based on the aforementioned definition and criteria, following is the IG’s revised
list of most serious management challenges facing NRC. The list is in no rank
order of importance. The IG issued this list to Congress and the NRC Chairman
on November 22, 2000. The following chart provides a quick overview of the
seven management challenges. The sections that follow provide more detailed
descriptions of the challenges, descriptive examples related to the challenges,
examples of initiatives the agency has underway to address the challenges, and
a listing of the reports issued by OIG (audits and investigations) in fiscal year
2000 that relate to the challenge areas. NRC senior management is aware of
and has a planned approach through its strategic planning process to address
each of the management challenges identified. While the agency has many
initiatives planned or underway, agency managers must continue to focus their
attention to determine if the agency is adequately meeting the challenges.




                                 5
Special Evaluation of NRC’s Most Serious Management Challenges




                         NRC’s Most Serious Management Challenges
                                  as of November 22, 2000
 Challenge 1                                            Challenge 5


 Development and implementation of an                   Intra-agency communication (up, down, and
 appropriate risk-informed and performance-             across agency organizational lines)
 based regulatory oversight approach
 Challenge 2                                            Challenge 6


 Identification, acquisition, and                       Regulatory processes that are integrated and
 implementation of information technologies             continue to meet NRC’s safety mission in a
                                                        changing external environment
 Challenge 3                                            Challenge 7


 Administration of all aspects of financial             Maintenance of a highly competent staff to
 management                                             carry out NRC’s public health and safety
                                                        mission (i.e., human capital management)
 Challenge 4
                                                                    The challenges are not ranked
 Clear and balanced communication with                              in any order of importance.
 external stakeholders




                                                    6
                                         Special Evaluation of NRC’s Most Serious Management Challenges

CHALLENGE 1
          Development and implementation of an appropriate risk-informed and
          performance-based regulatory oversight approach



           NRC is making its regulatory framework more risk-informed so that areas of
           highest risk receive the greatest focus. Where appropriate, NRC is also making
           its regulatory framework more performance-based which is results-oriented and
           open to allowing licensee flexibility in how to meet NRC’s regulatory
           requirements. The overall goal of this adjustment in regulatory approach is to
           enhance safety decision making, improve efficiency, and reduce resources
           devoted to issues with low safety significance. To be successful, NRC’s
           stakeholders (particularly staff members responsible for implementing this
           approach) must fully understand its dynamics and the agency’s goals.

           While the agency is aware of what it needs to do to meet its goals, the
           adjustment in regulatory approach has been and will continue to be a critical
           area that warrants high-level management attention. In October 1996, OIG
           issued a special evaluation report(2) that assessed the agency’s efforts to move
           toward a risk-informed and performance-based regulatory system. The report
           concluded that the agency needed to define what is a performance-based
           system. To do this, OIG suggested that NRC develop a comprehensive strategy
           for how its risk-informed and performance-based efforts will be accomplished.
           The report also suggested that this strategy should include a means for
           measuring progress towards meeting the objectives of that strategy. In 1998,
           respondents to the OIG’s NRC Safety Culture and Climate Survey(3) were
           concerned about the changes in the agency’s regulatory methodology and 67
           percent did not know if or did not believe that increased focus on the new
           methodology was improving NRC’s regulatory effectiveness.

           In February 1999, during congressional testimony,(4) the General Accounting
           Office (GAO) noted, among other things, that NRC had not developed a
           comprehensive strategy that would move its regulation to an approach that
           focuses on risk. Additionally, GAO said that NRC had not defined such central
           regulatory concepts as “important to safety” and “risk significant.” In March
           1999, the Commission issued a “White Paper” on risk-informed and
           performance-based regulation in an effort to improve the staff’s commonality




     2
           OIG/96E-18, Better Definition and Planning Needed to Guide NRC’s Transition to a Risk-Informed,
           Performance-Based Regulatory System, dated October 4, 1996.
     3
           OIG/97E-16, OIG’s NRC Safety Culture and Climate Survey, dated June 1998.
     4
           GAO Testimony, Systematic Approach Needed to Regulate Risk-Significant Issues, before the
           Subcommittee on Clean Air, Wetlands, Private Property, and Nuclear Safety, Committee on
           Environment and Public Works, U.S. Senate, on February 4, 1999.

                                                 7
Special Evaluation of NRC’s Most Serious Management Challenges

                and understanding of the regulatory approach. However, a report(5) issued by
                the Center for Strategic & International Studies (CSIS) in August 1999 noted that
                NRC, as a first priority, still needed to define the term “important to safety.”
                Further, the CSIS report concluded that NRC needed clear, concise definitions.
                In January 2000, GAO issued a report(6) regarding the agency’s move to a risk-
                informed regulatory approach and the status of its efforts to develop a strategy to
                implement this approach. GAO concluded that NRC’s move to a risk-informed
                regulatory approach is a major change to its culture which will take significant
                time and effort.

                The agency has made progress in this area. For example, NRC is integrating
                risk-informed approaches into the staff’s process used to evaluate the
                significance of inspection findings at operating reactors as part of its revised
                Reactor Oversite Process. The agency implemented its revised Reactor
                Oversight Process in April 2000 for commercial nuclear power plants to make it
                more risk-informed, objective, understandable, and focused on areas of greatest
                significance.

                Also, in late October 2000, in response to a GAO report recommendation,(7) NRC
                staff issued an information paper(8) to the Commission on its risk-informed
                regulation implementation plan. The intent of the plan is to describe the staff’s
                goals to achieve its vision by applying criteria to select regulatory requirements
                and practices; risk-informing those requirements and practices; and developing
                the necessary data, methods, guidance, and training to integrate the agency’s
                risk-informing activities. After the NRC staff briefed the Commission on its new
                implementation plan,(9) the Chairman expressed his view that the implementation
                plan document falls short of being a plan of the type the Commission had
                envisioned, and while it is a commendable effort, he stated that the agency still
                has more to do.

                In addition to continued work on its risk-informed regulation implementation plan,
                the agency is also using a risk-informed approach in developing Yucca Mountain
                rulemakings to implement the Environmental Protection Agency’s standards.
                Yucca Mountain is being considered as the potential site to serve as the Nation’s
                high-level waste repository. Further, NRC continues to change its enforcement
                program (including recent revisions to the Enforcement Policy) with the intent to
                make it better linked to the safety significance of inspection findings and to


        5
                The Regulatory Process for Nuclear Power Reactors, A Review. A report of the CSIS Nuclear
                Regulatory Process Review Steering Committee, dated August 1999.
        6
                RCED-00-29, Nuclear Regulation: NRC Staff Have Not Fully Accepted Planned Changes, dated
                January 19, 2000.
        7
                GAO/RCED-99-95, Nuclear Regulation: Strategy Needed to Regulate Safety Using Information on
                Risk, dated March 19, 1999.
        8
                SECY-00-0213, Risk-Informed Regulation Implementation Plan, dated October 26, 2000.
        9
                Public Meeting, Briefing on Risk-Informed Regulation Implementation Plan, November 17, 2000.

                                                      8
                                         Special Evaluation of NRC’s Most Serious Management Challenges

            emphasize the importance of licensees’ corrective action programs. According
            to the Chairman,(10) while the agency has taken the first steps in its efforts to risk-
            inform its regulatory system, NRC has a “long and difficult road” ahead that will
            require informed input from the industry and other stakeholders.

            NRC has some inherent difficulties to overcome in applying a risk-informed
            regulatory approach for its nuclear materials licensees. The complexity of
            developing a risk-informed approach that would adequately cover all types of
            licensees is increased by the almost 21,000 licensees and the diversity of
            activities that they conduct (e.g., using radioactive material for industrial,
            medical, or academic purposes). To help address these issues, the agency
            formed a Risk Task Group. The Risk Task Group will use case studies to test
            screening criteria and to determine the feasibility of developing safety goals
            applicable to nuclear material licensees. The Group will also implement risk
            training for agency staff.

            OIG has several reviews planned in this area for fiscal year 2001, including the
            second safety culture and climate survey of NRC’s workforce. Additionally, the
            following is a list of OIG reports issued in fiscal year 2000 related to risk-
            informed and performance-based regulatory oversight:

                    Review of NRC’s Operator Licensing Program - Audit

                    Review of NRC’s Spent Fuel Pool Inspection Program at
                    Decommissioning Nuclear Power Plants - Audit

CHALLENGE 2
          Identification, acquisition, and implementation of information
          technologies



            Federal agencies’ investments in information technology (IT) are critical in
            providing more effective and cost-efficient government services to the public.
            However, NRC, like other Federal agencies, continues to struggle in its efforts to
            obtain a good return on these investments. Congress recognized the need for
            added diligence in IT investment management in the Clinger-Cohen Act, which
            was intended to bring accountability, discipline, and structure to agencies’
            investment practices.




     10
            Remarks by Chairman Richard A. Meserve at the Institute for Nuclear Power Operations
            Conference, Atlanta, GA, November 2, 2000, Excellence in Nuclear Safety in Today’s Regulatory
            Environment, A Status Report and a Look Toward the Future at the NRC.

                                                  9
Special Evaluation of NRC’s Most Serious Management Challenges


                The necessary link of IT to NRC’s mission performance makes it important for
                the agency to have decision-making processes to assure that funds are invested
                and managed to achieve high value outcomes at acceptable costs. These
                investments include telecommunications and networks, new operating systems
                and software, continued support and operations of existing infrastructure, and
                data centers. While the agency has made improvements in how it budgets for
                new systems development efforts, it still needs to improve in the areas of
                planning and managing projects. Information security also poses an array of
                potential challenges for the agency.

                NRC relies on a wide variety of information systems and networks to help it carry
                out its responsibilities and support its business functions. The Office of the Chief
                Information Officer (OCIO) plans, directs, and oversees NRC's information
                resources (including information technology infrastructure, applications systems,
                and delivery of information management services) to meet the mission and goals
                of the agency.

                OIG is aware that the agency has experienced extensive problems in the
                systems development area and it is not evident that the Capital Planning and
                Investment Control (CPIC) process (for evaluating IT projects) has benefitted
                these efforts. Presently, NRC is trying to work through many issues with its
                Agencywide Documents Access and Management System (ADAMS). A later
                section of this report provides more details on the background and problems
                associated with ADAMS. ADAMS is but one example of the struggles NRC has
                had in its attempts to deliver fully functional, well integrated systems within
                schedule and budget. The Agency Training System, Pay Pers, and STARFIRE
                are other examples of systems development projects in which the agency
                experienced extensive problems in its systems development efforts. Systems
                development is not the only area in which the agency has encountered problems
                in the IT area, but it exemplifies the need for close management attention,
                integrated decision-making processes, and more diligent planning in the IT area.

                NRC also has had problems with its procurement vehicle for the development,
                operation, maintenance, and support of the agency’s information technology
                systems and for related operations support. This vehicle has been the subject of
                multiple OIG audits and is being substantially overhauled.

                In addition to the high costs and risk generally associated with IT investments,
                another global challenge is the protection of information from unauthorized
                access, tampering, and destruction. Therefore, the information security area
                poses an array of potential challenges for the international, Federal, and private
                sectors, including NRC. NRC recently received an “incomplete” in the computer
                security area in a recent congressional assessment, which was due to the
                absence of recent independent audit work. OIG plans to audit this area over the
                next year.




                                                    10
Special Evaluation of NRC’s Most Serious Management Challenges


                In addition, OIG completed the following reviews related to the IT area in fiscal
                year 2000:

                        Senior Management Support Needed to Ensure Timely Implementation of
                        the LSN - Audit

                        Review of NRC’s Controls Over Work Performed Under CISSCO - Audit

                        Review of the Development and Implementation of STARFIRE - Audit

                        Review of NRC’s Audit Follow-Up System - Audit

                        Special Evaluation of the Status of NRC’s Website - Audit

                        NRC’s Efforts to Protect Its Critical Infrastructure: Presidential Decision
                        Directive 63 - Audit

                        Review of the Basis for the Structure of NRC’s CISSCO Program - Audit

 CHALLENGE 3
           Administration of all aspects of financial management


                NRC must be a prudent steward of its fiscal resources through sound financial
                management. The Office of the Chief Financial Officer (OCFO) has the lead for
                the implementation of the Government Performance and Results Act of 1993.
                This includes developing the agency’s strategic plan and implementing the NRC
                Planning, Budgeting, and Performance Management process. According to the
                NRC, this process is an integrated method for planning, budgeting, and
                assessing performance that will enable the agency to better align its programs to
                outcomes.

                The financial reporting process, an important aspect of financial management, is
                an agency method for tracking and reporting on its resources. For the past six
                consecutive years (1994 through 1999), NRC has received an unqualified
                opinion on its financial statements. The agency has also taken actions to
                implement a system to capture labor-cost data by strategic arenas. However,
                OIG has found instances where the agency relied on the OIG annual financial
                statement audit process to identify problems and outline solutions instead of
                initiating its own actions to assess financial reporting requirements and develop
                solutions. Furthermore, reportable conditions regarding the financial statements
                have increased over the last three years.

                As a specific example, the Federal Accounting Standards Advisory Board
                established requirements whereby Federal agencies were to develop and
                implement, by fiscal year 1998, cost accounting practices and techniques. The
                implementation of cost accounting techniques and practices is essential to


                                                    11
Special Evaluation of NRC’s Most Serious Management Challenges

                agency managers’ ability to comply with the Government Performance and
                Results Act. NRC has developed a remediation plan for achieving compliance
                and projects implementation of cost management by mid-fiscal year 2001.
                Detailed information regarding an open audit recommendation related to cost
                accounting is provided at Section B - Open Audit Recommendation.

                NRC allocates a significant portion of its budget to procurement matters to
                ensure the safety of the public and to enable efficient operation. In times of
                reduced financial resources, it is important that NRC strives for economy in
                meeting the agency’s mission through effective and efficient procurement.
                Without effective oversight, the government procurement process is even more
                susceptible to fraud, waste, and abuse.

                As part of its procurement process, the agency relies on its Comprehensive
                Information Systems Support Consolidation (CISSCO) program as the primary
                vehicle for the development, operation, maintenance, and support of the
                agency’s information technology systems and for related operations support.
                Currently, CISSCO consists of a single contractor, using several subcontractors,
                to provide a wide-range of information technology services. Since 1996, when
                the contract was signed with Computer Sciences Corporation as the prime
                contractor for meeting the needs of NRC’s CISSCO program, OIG has
                conducted three audits(11) specifically reporting on potential improvements that
                the agency should make to lessen the risks and weaknesses associated with the
                program. OIG’s audit report on the agency’s financial statements for the year
                ended September 30, 1998, also contained specific recommendations for
                addressing funds control weaknesses associated with the CISSCO program.
                The agency is currently in the process of addressing OIG’s concerns through the
                implementation of CISSCO II, the agency’s successor program to CISSCO.

                OIG will continue to monitor the agency’s procurement program and will conduct
                audits of specific contracts. Likewise, as required by the Chief Financial Officers
                Act of 1990, OIG will continue to conduct financial statement audits of the
                agency.

                In addition, OIG issued the following reports in relation to various aspects of
                financial management in fiscal year 2000:

                        Review of NRC’s Controls Over Work Performed Under CISSCO - Audit

                        Review of the Development and Implementation of STARFIRE - Audit

                        Review of the Basis for the Structure of NRC’s CISSCO Program - Audit

                        Independent Auditors’ Report and Principal Statements for the Year


        11
                OIG/98A-18, Controls Over Funding for CISSCO Need Improvement, dated May 11, 1999;
                OIG/99A-13, Review of NRC’s Controls Over Work Performed Under CISSCO, dated March 14,
                2000; and OIG/00A-03, Review of the Basis for the Structure of NRC’s CISSCO Program, dated
                June 8, 2000.

                                                    12
Special Evaluation of NRC’s Most Serious Management Challenges

                        Ended September 30, 1999 - Audit

                        Review of NRC’s Implementation of the Federal Managers’ Financial
                        Integrity Act for Fiscal Year 1999 - Audit

                        Best Practices in Implementing Managerial Cost Accounting - Audit

                        Time Charge Abuse by NRC Contractor - Investigation

                        Possible Fraud by ICF Inc. Involving NRC Contracts - Investigation

                        False Claim: Pal Consultants Inc. - Investigation

                        Misadministration of NRC Contract NRC-10-99-151 - Investigation

                        37 U.S. Defense Contract Audit Agency Contract Audits


 CHALLENGE 4
                 Clear and balanced communication with external stakeholders


                To maintain public trust and confidence, NRC must be viewed as an
                independent, open, efficient, clear, and reliable regulator.(12) The agency states
                that it will accomplish this by providing its diverse group of external stakeholders
                (e.g., the Congress, general public, other Federal agencies, industry, citizen
                groups) with clear and accurate information about, and a meaningful role in, its
                regulatory process. This is a difficult task because of the highly technical nature
                of NRC’s operations and the balance the agency must maintain to remain
                independent.

                NRC recognized the need to improve the quality, clarity, and credibility of
                communications with all stakeholders and developed a plan to accomplish this
                initiative. NRC focused on improvements in the broad areas of (1) more
                effective written and oral communications with the public, (2) early identification
                of concerns, (3) early involvement of the public in NRC regulatory decisions of
                substantial interest or concern, and (4) more effective outreach to the general
                public on NRC’s roles and responsibilities.




        12
                See Appendix III, NRC’s Principles of Good Regulation, which details the characteristics noted
                above.

                                                      13
Special Evaluation of NRC’s Most Serious Management Challenges


                It is not uncommon for NRC OIG investigative staff to hear complaints
                concerning the public’s perceived lack of adequate access to NRC’s regulatory
                process. Some citizens perceive that the NRC staff (1) miss opportunities to
                dialogue with the public and (2) engage in much more frequent and open
                discussion with the industry than with the public. OIG recognizes that “balanced”
                communication does not mean an “equal” frequency in contacts with the public
                and the regulated industry. The challenge is that NRC must maintain constant
                contact with the industry to meet its safety mission and, at the same time, afford
                all other stakeholders appropriate access to its regulatory process in a manner
                that fosters confidence in the agency.

                NRC employees often have difficulties communicating with the public through
                both highly technical documents and statements made at public meetings.
                Jargon and technical language work reasonably well with NRC’s licensees;
                however, such language is not very effective in dealing with other stakeholders,
                particularly the general public. NRC realizes this and has several initiatives
                underway through its strategic plan to enhance public confidence by
                communicating more clearly and adding focus, clarity, and consistency to its
                message. For example, the agency is offering communication training courses
                for its managers and staff, and it has embarked on a redesign effort of the NRC
                public website. NRC has also developed communication plans to effectively
                communicate with and involve diverse stakeholders early in regulatory activities.
                Further, the agency recently issued a revised “plain language” booklet describing
                its new Reactor Oversight Process.

                According to the NRC Chairman,(13) public confidence is a challenge for the
                agency because continuing efforts are required. He also believes that a
                renewed interest in nuclear energy is emerging and will not be sustained without
                public confidence. The Chairman said that the NRC will continue to engage the
                public and search for new means to facilitate that engagement.

                OIG currently has a review underway regarding the agency’s quality assurance
                process for official documents that are available to external stakeholders. Also,
                in fiscal year 2000, OIG issued the following reports related to external
                communication:

                        NRC’s License Fee Development Process Needs Improvement - Audit

                        Senior Management Support Needed to Ensure Timely Implementation of
                        the LSN - Audit

                        Special Evaluation of the Role and Structure of the NRC’s Commission -
                        Audit




        13
                Remarks by Chairman Richard A. Meserve at the Institute for Nuclear Power Operations
                Conference, Atlanta, GA, November 2, 2000, Excellence in Nuclear Safety in Today’s Regulatory
                Environment, A Status Report and a Look Toward the Future at the NRC.

                                                     14
                                    Special Evaluation of NRC’s Most Serious Management Challenges


                  Review of NRC’s Decommissioning Fund Program - Audit

                  Special Evaluation of the Status of NRC’s Website - Audit

                  Misleading NRC Response to Congressional Request for Information -
                  Investigation

                  NRC’s Response to the February 15, 2000, Steam Generator Tube
                  Rupture at Indian Point Unit 2 Power Plant - Investigation

                  Improper Actions by a Region III Inspector Toward Licensee Employees -
                  Investigation

CHALLENGE 5
          Intra-agency communication (up, down, and across agency
          organizational lines)



           Internal communication is a fundamental and necessary aspect of conducting
           agency business. NRC needs effective internal communication channels and
           methods to support its critical health and safety mission. Information is the key
           resource that links managers to the staff, the organization, and other
           stakeholders--enabling them to do their jobs. However, unless the information is
           organized, it is just data and is not meaningful.

           As evidenced by OIG’s NRC Safety Culture and Climate Survey results in 1998,
           improvements are needed in various aspects of the NRC’s internal
           communications. For example, over a third of the employees responded that
           they did not feel sufficiently informed about NRC’s performance. Also, a third of
           the employees believed that communication at the NRC would remain generally
           poor over the next year or so. NRC managers recognize the need to improve
           internal communications and have a number of ongoing initiatives to address this
           issue. For example, the current Senior Executive Service (SES) Candidate
           Development Program members are reviewing and assessing the agency’s
           internal communications. This project includes activities such as identifying good
           communication practices that can assist NRC in improving the effectiveness and
           efficiency of its internal communications. Additionally, the Office of Nuclear
           Reactor Regulation (NRR) is working with a contractor on staff outreach and
           change management issues, particularly in the areas of training and
           communication. Similarly, the Office of Nuclear Material Safety and Safeguards
           is developing a communications website, including discussion groups and links
           to important documents to enhance communications within the office.




                                           15
Special Evaluation of NRC’s Most Serious Management Challenges


                Breakdowns in internal communication channels and methods have the potential
                to undermine the agency’s accomplishment of its mission. For example, through
                an Event Inquiry(14) on the Indian Point Unit 2 Power Plant, OIG noted that staff
                members in NRR contacted the Office of Nuclear Regulatory Research (RES)
                after a steam generator tube ruptured at Indian Point Unit 2 Power Plant. Once
                contacted, RES was able to quickly provide NRR with relevant information and
                feedback on this incident. Additionally, the agency conducted a lessons-learned
                review. As a result, NRR has initiated efforts to further improve its
                communication with other offices, placing special emphasis on RES.

                At a recent Advisory Committee on Reactor Safeguards (ACRS) meeting,(15) a
                representative from a public interest group stated his belief that reports put out
                by RES “go up on a shelf” without the rest of the NRC staff relying on them. The
                representative related a specific instance when he talked about numbers in a
                report and regional NRC staff members had never heard of the information. An
                ACRS official agreed with these statements and added that ACRS has
                previously expressed its disappointment on many occasions. Moreover, during a
                recent Water Reactor Safety Information Meeting,(16) an NRC Commissioner
                stated that some of NRC’s internal and external stakeholders still do not have an
                appreciation of the value provided by the agency’s research initiatives.

                NRC has organized its strategic goals, performance goals, and strategies for
                achieving its mission into the following four strategic arenas: Nuclear Reactor
                Safety, Nuclear Materials Safety, Nuclear Waste Safety, and International
                Nuclear Safety Support. Through its strategic plan, the agency has identified
                increased efforts in each of these arenas to improve the coordination and
                communication between its program offices.

                OIG is preparing to again measure NRC’s organizational safety culture and
                climate and compare the results against the baseline survey it conducted in
                1998. Additionally, OIG issued the following reports in fiscal year 2000 that
                address some of the challenges the agency is facing regarding its intra-agency
                communications:

                        Special Evaluation of the Role and Structure of the NRC’s Commission -
                        Audit

                        Review of NRC’s Differing Professional View/Differing Professional
                        Opinion Program - Audit

                        NRC’s Response to the February 15, 2000, Steam Generator Tube
                        Rupture at Indian Point Unit 2 Power Plant - Investigation


        14
                Case No. 00-03S, NRC’s Response to the February 15, 2000, Steam Generator Tube Rupture at
                Indian Point Unit 2 Power Plant, dated August 29, 2000.
        15
                Advisory Committee on Reactor Safeguards, 476th Meeting, October 5, 2000.
        16
                Water Reactor Safety Information Meeting, 28th Annual Meeting, October 25, 2000.

                                                     16
                                        Special Evaluation of NRC’s Most Serious Management Challenges



CHALLENGE 6
          Regulatory processes that are integrated and continue to meet NRC’s
          safety mission in a changing external environment



           According to the Chairman,(17) NRC is currently in a period of transition in several
           dimensions and he believes that the change is more rapid than in any other
           period in the history of civilian nuclear power, certainly since the event at Three
           Mile Island. Several of the factors driving this period of transition are economic
           deregulation of electric utilities, license transfers, and license renewals. NRC’s
           organizational structure can also affect the way its regulatory processes are
           integrated. All of these conditions pose a challenge for the agency.

           As a direct result of deregulation, NRC has experienced a significant increase in
           the number of requests for approval of license transfers. Historically, the agency
           has seen an average of about two or three license transfers per year. In 1998
           and 1999 that average jumped to 15 license transfers per year. Another related
           issue that the NRC is dealing with is license renewals due to an increase in the
           interest in nuclear power plant life extension beyond the original 40-year term.
           As these diverse licensing activities continue to increase, the agency must
           ensure that its procedures are focused and well integrated so as to not create
           unmanageable demands on staff resources.

           Additionally, NRC has faced an increase in the number of decommissioning
           commercial nuclear power plants. Part of the decommissioning process is when
           the fuel is removed from the reactor of a retired commercial nuclear power plant.
           The fuel, known as spent fuel, is stored in spent fuel pools which are steel-lined,
           concrete vaults filled with water. The spent fuel has an elevated temperature
           and contains some highly radioactive gases. Recently, OIG completed an
           audit(18) on spent fuel pools at decommissioning nuclear power reactors. During
           the audit, OIG observed that transitioning decommissioning responsibilities
           between NRC offices can be improved. For example, under the current process,
           a plant may have three project managers from different NRC offices assigned at
           the same time. Communication among project managers can create challenges
           during decommissioning. The agency is reviewing its procedures for
           transitioning responsibility between NRC offices during the decommissioning
           process.




     17
           Remarks by Chairman Richard A. Meserve at the Institute for Nuclear Power Operations
           Conference, Atlanta, GA, November 2, 2000, Excellence in Nuclear Safety in Today’s Regulatory
           Environment, A Status Report and a Look Toward the Future at the NRC.
     18
           OIG/00A-01, Review of NRC’s Spent Fuel Pool Inspection Program at Decommissioning Nuclear
           Power Plants, dated August 16, 2000.

                                                17
Special Evaluation of NRC’s Most Serious Management Challenges

                OIG learned during its special evaluation(19) of the Executive Council (EC)(20) that
                the existing EC structure did not foster an environment in which EC members
                routinely focused on a common picture of success across the agency. For
                example, since the EC members were each responsible for their own functional
                areas, they seemed to promote their individual responsibilities without careful
                coordination regarding the impact on staffing constraints of other offices.
                Furthermore, due to their alignment within NRC and their equal voting status on
                the EC, no one EC member could direct the actions of another. One EC
                member said that because there was no accountability among the members to
                each other, he could not always secure the information or assistance he needed
                from the others for effective resource planning. Conversely, his staff often spent
                unplanned resources to execute programs implemented by the other EC
                members. The lack of close coordination and integration of program and
                resource planning and implementation can be costly. In response to OIG’s
                special evaluation, the NRC Chairman announced on January 17, 2001, that the
                EC was abolished effective immediately. The agency is now transitioning to its
                new arrangement.

                NRC must be cognizant of its processes to make sure that they are well
                integrated. In addition, agency managers need to be fully aware of what each
                organizational component is doing in an effort to reduce regulatory burden
                without compromising the public’s health and safety. OIG will continue to
                monitor this area. OIG issued the following reports relating to the integration of
                NRC’s regulatory processes in fiscal year 2000:

                        Review of NRC’s Operator Licensing Program - Audit

                        Review of NRC’s Spent Fuel Pool Inspection Program at
                        Decommissioning Nuclear Power Plants - Audit

                        Special Evaluation of the Role and Structure of NRC’s Executive Council
                        - Audit

                        NRC’s Response to the February 15, 2000, Steam Generator Tube
                        Rupture at Indian Point Unit 2 Power Plant - Investigation




        19
                OIG/00E-09, Special Evaluation of the Role and Structure of NRC’s Executive Council, dated
                August 31, 2000.
        20
                The EC was an executive body composed of three equal members: the Executive Director for
                Operations, the Chief Financial Officer, and the Chief Information Officer.

                                                     18
                                     Special Evaluation of NRC’s Most Serious Management Challenges

CHALLENGE 7
          Maintenance of a highly competent staff to carry out NRC’s public
          health and safety mission (i.e., human capital management)



           NRC needs a dynamic, results-oriented, diverse workforce with the appropriate
           knowledge, skills, abilities, and competencies to achieve its public health and
           safety mission. Although the agency’s expertise appears to be sufficient today, it
           is likely that the future expertise and technical capability of NRC will decline
           without intervention. Indicators such as declining university enrollment in nuclear
           studies, dilution of university courses in nuclear studies, and the high number of
           staff eligible to retire further exacerbate NRC’s ability to maintain a technically
           qualified staff. NRC has identified that about 40 percent of its SES members will
           be eligible for optional retirement within the next three years. In 1998, OIG’s
           NRC Safety Culture and Climate Survey results showed that over half of the staff
           did not think that the agency was doing a good job of developing its people to
           their fullest potential or retaining the most talented people. A senior agency
           official noted that the survey was conducted during a period of downsizing of
           NRC’s budgetary and human resources. Without resources which support the
           use of a full range of incentives to recruit and retain highly qualified employees,
           NRC runs the risk of not being adequately staffed to meet its public health and
           safety mission. While the NRC has the need for some unique skills, it is
           important to note that human capital management is a challenge facing all of the
           Federal government.

           NRC is addressing human capital management issues in the context of its
           Planning, Budgeting, and Performance Management process. For example, the
           agency is working to develop and maintain a pool of high-potential management
           candidates through its SES Candidate Development Program. Recently, the
           Chairman also directed the staff to perform an assessment of the scientific,
           engineering, and technical core competencies that NRC needs and propose
           specific strategies for ensuring that they are maintained.

           OIG plans to review NRC’s efforts in human capital management to determine
           the effectiveness of the agency’s workforce plan. In fiscal year 2000, OIG
           issued the following report related to human capital management:

                  Review of NRC’s Differing Professional View/Differing Professional
                  Opinion Program - Audit




                                            19
Special Evaluation of NRC’s Most Serious Management Challenges


        B.      Open Audit Recommendation

                Congress requested the IGs to identify and briefly describe any significant open
                audit recommendations that address the management challenges they identified.
                Relating to Challenge 3, as previously stated, the IG identified a significant audit
                recommendation, NRC Compliance with the Federal Financial Management
                Improvement Act of 1996, that has not yet been closed. The Federal Financial
                Management Improvement Act of 1996 (FFMIA) requires that agencies establish
                a remediation plan when their financial systems do not comply with the
                provisions of the Act. The remediation plan is to include resources, remedies,
                and intermediate target dates to bring the agency’s systems into compliance. An
                agency then has three years to implement the plan. Section 804(b) of the
                FFMIA requires that Inspectors General, who prepare Semiannual Reports to
                Congress, report instances and reasons when any agency has not met the
                intermediate target dates established in the remediation plan.

                On March 1, 1999, the OIG reported a substantial noncompliance with FFMIA
                because NRC had not implemented a cost accounting process as required by
                Statement of Federal Financial Accounting Standards Number 4. NRC’s OCFO
                submitted a remediation plan dated July 19, 1999, and a revised plan dated
                November 17, 1999. Full implementation of cost accounting was scheduled for
                May 2001. However, as of November 30, 2000, NRC has not met key
                intermediate target dates designed to achieve full implementation by May 2001.
                The delay is primarily due to problems in implementing NRC’s time and labor
                system, which is integral to achieving the agency’s cost accounting objectives.

                On December 27, 2000, the agency transmitted its revised remediation plan for
                managerial cost accounting to OIG. NRC anticipates that its integrated human
                resources, payroll, and labor cost distribution system, as well as its managerial
                cost accounting software will be implemented in mid-fiscal year 2001. The OIG
                will continue to monitor the agency’s progress and report, as needed, in future
                Semiannual Reports to Congress.




                                                    20
                                Special Evaluation of NRC’s Most Serious Management Challenges


C.   NRC’s Efforts in Addressing the IG’s 1999 List of Most Serious
     Management Challenges

     Congress expects each agency to match its management challenges with the
     appropriate steps in its strategic plan and performance plan. In essence,
     Congress is looking for a crosswalk to clearly show the connection. The
     Department of Transportation (DOT) has successfully completed this task and
     congressional staff members hold the crosswalk to the management challenges
     in DOT’s strategic plan as a good example. Essentially, the crosswalk is a tool
     for an agency to verify that it has addressed its management challenges. This
     approach also shows Congress that the agency is taking its management
     challenges seriously.

     A GAO report(21) found that NRC’s 1999 Performance Report and Fiscal Year
     2001 Performance Plan had not established performance goals or measures that
     specifically addressed GAO’s or the IG’s management challenges. Furthermore,
     the Chairman of the Senate Governmental Affairs Committee advised NRC that,
     without specific and measurable goals for many of the major management
     challenges, it will be difficult to assess progress in addressing many of the areas.
     In August 2000, OIG informed agency officials of the need and importance for
     NRC to do a crosswalk between its strategic plan and performance plan and the
     IG’s management challenges. In response, NRC included an appendix
     dedicated to the management challenges in its Strategic Plan for Fiscal Year
     2000 - Fiscal Year 2005 that was distributed on October 4, 2000. For each
     challenge, NRC identified the goals, their associated strategies, and/or the
     corporate management strategies that relate to them in the strategic plan.

     Section A of this report provided some specific examples of initiatives the agency
     has underway to address its management challenges. In addition, the agency
     plans to address the newly revised management challenges in greater detail in
     its Annual Performance Plan.




21
     GAO/RCED-00-200R, NRC’s FY 1999 Performance Report and FY 2001 Performance Plan, dated
     June 30, 2000.

                                       21
Special Evaluation of NRC’s Most Serious Management Challenges


        D.      Comparison of the Lists

                The IG has developed and revised his list of most serious management
                challenges three times in response to congressional requests. And, his lists have
                evolved over the years. For example, when the IG revised his initial list, several
                of the challenges that revolved around NRC’s possible regulatory oversight of
                Department of Energy (DOE) facilities were removed because interest in that
                issue had subsided. However, the IG is aware that former House Commerce
                Committee Chairman Tom Bliley(22) introduced a bill on March 14, 2000, that
                would give NRC oversight of all nuclear safety matters across the DOE. The IG
                will continue to monitor this issue.

                Additionally, Congress’ use for the management challenges lists has also
                evolved. Initially, Congress asked for the lists as an aid in developing agendas
                for a congressional session. Later, Congress focused on linking the
                management challenges lists to the Government Performance and Results Act.

                In developing the newly revised management challenges list, the IG was able to
                eliminate some challenges by merging them with other challenges because the
                agency has made positive progress in certain areas. For example, Refocusing
                NRC’s research program to reflect a mature industry, from the previous
                management challenge list,(23) has been merged with other challenges to create
                Challenge 6, Regulatory processes that are integrated and continue to meet
                NRC’s safety mission in a changing external environment. NRC’s research
                program is also a consideration in Challenge 5, Intra-agency communication (up,
                down, and across agency organizational lines). Because NRC’s research
                program has shown some positive progress, through a major reorganization
                (including the reduction of management positions) and an Arthur Andersen-
                assisted self-assessment, it no longer singularly rises to the threshold of a
                serious management challenge. Nevertheless, the research program is still a
                challenge for and vital to the agency.

                Another example, relating to a challenge from the previous list (Ensuring that
                NRC’s enforcement program has an appropriate safety focus and reflects
                improved licensee performance), is part of the new reactor oversight program
                which includes assessment, inspection, and enforcement. The reactor oversight
                program is addressed through Challenge 1. While the agency’s enforcement
                program is an ongoing effort, it appears to be making positive progress through
                significant changes as evidenced by its new Enforcement Manual. Therefore,
                this program no longer singularly rises to the threshold of a most serious
                management challenge.




        22
                Congressman Bliley’s term ended on January 3, 2001.
        23
                See Appendix II for a copy of the IG’s management challenges list from 1999 which was based on
                his December 1, 1998 listing.

                                                     22
                              Special Evaluation of NRC’s Most Serious Management Challenges


E.   Agency Program with Questionable Results

     Congress requested the IG to identify, based on his work and knowledge of
     agency operations, any programs that, in his judgment, have had questionable
     success in achieving the intended results. This includes, among other things,
     programs providing ineffective subsidies; programs that suffer from poor
     targeting or design; or programs that simply are not managed in a way that best
     promotes accomplishing their intended results. ADAMS is a program that has
     experienced questionable success in achieving results.

     ADAMS is an electronic information system for maintaining NRC’s unclassified
     official program and administrative records in a centralized electronic document
     repository. ADAMS became a strategic NRC initiative in November 1993 giving
     it top agency support regarding information technology. The approval to fund the
     system came by March 1994 and the ADAMS development project was awarded
     to its first contractor in mid 1996. By October 1996, the contract ended and the
     $1.3 million obligated for the work had been essentially spent. In February 1997,
     OIG initiated a survey to gather information on the current status and planned
     approach of the ADAMS contract. Because the ADAMS project was still
     unfolding, OIG terminated the survey in March 1997 with a briefing to the EC on
     its concerns regarding the development of the system.

     As a result of interviews with ADAMS project staff and other agency officials and
     the analysis of documentation pertaining to the project, OIG identified a need in
     January 1999 to take a more in-depth look at the project. The review focused on
     three aspects of ADAMS -- schedule, performance, and cost. Based on the
     information learned in this review, OIG did not see any significant impediments to
     the delivery of ADAMS. However, the analysis only reflected a “snapshot in
     time” and it was clear that a number of critical elements remained to be achieved
     before ADAMS could be fully implemented. For example, none of the major
     components of ADAMS would be delivered in full with the deployment of
     Release 1 of the system and that ADAMS had limited staff resources dedicated
     to the management of the project.

     In May 2000, after the deployment of Release 1, the NRC Chairman tasked the
     Acting Chief Information Officer (CIO) with developing an action plan to address
     areas of concern that had been reported by agency office directors and regional
     administrators. In addition, NRC received complaints from external stakeholders
     claiming that the system does not work. The Acting CIO was also tasked to work
     with the public to address the issues affecting the public’s ability to use ADAMS.
     During an NRC all employees meeting in June 2000, the Chairman said that the
     Commission is fully conscious of the concerns that people have with ADAMS and
     they are committed to addressing those concerns. He added that the
     Commission does not want to have the ADAMS system serve as a barrier to staff
     being able to complete their work effectively.




                                     23
Special Evaluation of NRC’s Most Serious Management Challenges


                In fiscal year 2001, OIG is planning to again initiate a review of ADAMS to
                assess the extent to which the Acting CIO has successfully implemented the
                requests from the Chairman and to assess what went wrong during the ADAMS
                project and why it occurred.

CONCLUSION

        One of the OIG’s strategic goals is to identify opportunities to improve NRC’s programs
        and operations. The IG’s identification of the most serious management challenges
        facing the agency and the work of the OIG staff helps achieve this goal. As evidenced
        by this review, the agency has already taken some steps to address the management
        challenges. This report does not acknowledge all of the initiatives that NRC has
        underway. Also, it does not highlight all of the areas where the agency still needs to
        focus management attention. Furthermore, this report makes no recommendations.

        While the IG identified seven distinctive challenges, the challenges are also
        interdependent of each other. By continuing its important activities in addressing these
        challenges, NRC can align itself to enhance agency efforts in successfully meeting its
        public health and safety mission.

AGENCY COMMENTS

        OIG also provided this report in draft form to the EC members and discussed its content
        with senior agency officials at an exit conference on January 22, 2001. As appropriate,
        OIG incorporated the senior managers’ views in the final version of this report.




                                                    24
                                     Special Evaluation of NRC’s Most Serious Management Challenges
                                                                                         Appendix I


SCOPE AND METHODOLOGY

    The scope of this special evaluation focused on the Inspector General’s (IG) revised list
    of most serious management challenges facing the Nuclear Regulatory Commission
    (NRC). Furthermore, the review explored, in depth, the agency’s efforts to address the
    management challenges, the similarities and differences between the IG’s previous
    managements challenges lists and the most current list, and a related agency program
    that has had questionable success in achieving its intended result.

    The Office of the Inspector General (OIG) special evaluation team interviewed NRC’s
    Chairman, Commissioners, office directors, and regional administrators to obtain their
    views on what challenges the agency is facing and what efforts the agency has taken to
    address previously identified management challenges. OIG also reviewed Office of the
    Inspector General (OIG) reports, General Accounting Office reports, and other NRC-
    sponsored reports.

    To assist OIG in identifying possible future challenges, OIG interviewed several futurists
    and used Peter F. Drucker’s book, Management Challenges for the 21st Century, as a
    resource. Furthermore, the special evaluation team talked with IG staff members from
    12 other Federal agencies to learn what challenges their agencies are facing. And, to
    get a better understanding of Congress’ intent for the management challenges list, OIG
    talked with the congressional staff members responsible for reviewing the lists. This
    special evaluation was conducted from July 2000 to October 2000. Major contributors to
    this report were Corenthis B. Kelley, Beth H. Serepca, and Cheryl A. Miotla.




                                            25
                                              Special Evaluation of NRC’s Most Serious Management Challenges
                                                                                                  Appendix II


1999 Management Challenges List(24)
(Based on December 1, 1998 Listing)

Challenge 1 -           Developing and Implementing a risk-informed, performance-based
                        approach to regulatory oversight.

Challenge 2 -           Developing information management systems and being able to
                        anticipate and measure the benefits to be gained.

Challenge 3 -           Responding to the impact of industry de-regulation and license transfers.

Challenge 4 -           Administering and overseeing agency procurement under government
                        contracting rules.

Challenge 5 -           Effectively communicating with the public and industry.

Challenge 6 -           Maintaining an unqualified financial statement opinion in light of new and
                        existing CFO requirements.

Challenge 7 -           Ensuring that NRC’s processes, such as spent fuel cask certification and
                        license renewal, are responsive to industry needs.

Challenge 8 -           Ensuring that NRC’s enforcement program has an appropriate safety
                        focus and reflects improved licensee performance.

Challenge 9 -           Refocusing NRC’s research program to reflect a mature industry.

Challenge 10 -          Responding to external influences for changing NRC’s operations. For
                        example, the ability to meet NRC’s mission and requirements of the
                        Government Performance and Results Act, as the result of a proposed
                        agency reorganization, poses a significant challenge to NRC.




      24
                The challenges are not ranked in any order of importance.

                                                      26
                                             Special Evaluation of NRC’s Most Serious Management Challenges
                                                                                                Appendix III


U.S. NUCLEAR REGULATORY COMMISSION’S (NRC)
PRINCIPLES OF GOOD REGULATION(25)


       INDEPENDENT. Nothing but the highest possible standards of ethical performance and
professionalism should influence regulation. However, independence does not imply isolation.
The NRC will seek all available facts and opinions openly from licensees and other interested
members of the public and consider the many and possibly conflicting public interests involved.
The NRC will strive to base final decisions on objective, unbiased assessments of all
information and explicitly state its reasons for the decisions.

        OPEN. Nuclear regulation is the public’s business, and it must be transacted publicly
and candidly. The public must be informed about and have the opportunity to participate in the
regulatory processes as required by law. Open channels of communication must be maintained
with Congress, other government agencies, licensees, and the public, as well as with the
international nuclear community.

        EFFICIENT. The American taxpayer, the rate-paying consumer, and licensees are all
entitled to the best possible management and administration of regulatory activities. The
highest technical and managerial competence is required and must be a constant agency goal.
The NRC must establish means to evaluate and continually upgrade its regulatory capabilities.
Regulatory activities should be consistent with the degree of risk reduction they achieve.
Where several effective alternatives are available, the option that minimizes the use of
resources should be adopted. Regulatory decisions should be made without undue delay.

       CLEAR. Regulations should be coherent, logical, and practical. There should be a
clear nexus between regulations and agency goals and objectives whether explicitly stated.
Agency positions should be readily understood and easily applied.

        RELIABLE. Regulations should be based on the best available knowledge from
research and operational experience. The agency should take into account systems
interactions, technological uncertainties, and the diversity of licensees and regulatory activities
so that risks are maintained at an acceptably low level. Once established, regulation should be
perceived by all stakeholders to be reliable and not unjustifiably in a state of transition. The
NRC’s regulatory actions should always be fully consistent with written regulations and should
be promptly, fairly, and decisively administered so as to lend stability to the nuclear operational
and planning processes.




       25
               NRC’s Strategic Plan, NUREG-1614, Vol. 2, Part 1, page ii.

                                                     27
                                  Special Evaluation of NRC’s Most Serious Management Challenges
                                                                                     Appendix IV


ABBREVIATIONS AND ACRONYMS

ACRS     -    Advisory Committee on Reactor Safeguards
ADAMS    -    Agencywide Documents Access and Management System
CIO      -    Chief Information Officer
CISSCO   -    Comprehensive Information Systems Support Consolidation
CPIC     -    Capital Planning and Investment Control
CSIS     -    Center for Strategic & International Studies
DOE      -    Department of Energy
DOT      -    Department of Transportation
EC       -    Executive Council
FFMIA    -    The Federal Financial Management Improvement Act of 1996
GAO      -    General Accounting Office
IG       -    Inspector General
IT       -    information technology
NRC      -    Nuclear Regulatory Commission
NRR      -    Office of Nuclear Reactor Regulation
OCFO     -    Office of the Chief Financial Officer
OCIO     -    Office of the Chief Information Officer
OIG      -    Office of the Inspector General
RES      -    Office of Nuclear Regulatory Research
SES      -    Senior Executive Service




                                          28
